I

STATE OF WEST VIRGINIA
At a Regular Term of the Supreme Court of Appeals, continued and held at Charleston,
Kanawha County, on the 20th day of April, 2020, the following order was made and entered:

State of West Virginia,
Plaintiff Below, Respondent
Vs.)

No. 19-0123

Alan Lane Hicks,
Defendant Below, Petitioner

ORDER
The Court, having maturely considered the petition for rehearing filed by the
t

petitioner, Alan Lane Hicks, self-represented, is of the opinion to and does hereby refuse said

\

petition for rehearing.

A True Copy
Attest: /s/ Edythe Nash Gaiser
Clerk of Court

-m

Issue Four.
This Court overlooked the need to rule on a Motion lor Correction of Error,
which adcfcessed
fact that the Schedufing Order wotid prevent ting the
issues presented in the cirait court.

(

Upon appeal, this Court's Scheduling Order stated, “the assignments of error in this
appeal must relate wily to the circuit court's decision not to reduce the petitioner's sentence!.]"
This part of the scheduling order was at odds with the actual issues. Those issues were
presented and briefed before the circuit court, but not properly addressed in the denial.
Therefore, the petitioner filed a motion for correction of error under Rule 6(e). In that motion,
which this court did not address, petitioner stated that, "(a]s a general rule, proceedings of trial
courts are presumed to be regular, unless the contrary affirmatively appears upon the reconf.]"
Emphasis added. See Syl. pt 17, State v. Thomas, 157 W.Va 640,203 S.E.2d 445 (1974).
See also, Memorandum of law in Support of Rule 35 Motion. (Apx. pgs. 33-39).
The wording in the scheduling order could have required sanctions under rule 5(e) had the
respondent addressed the actual issues submitted. Wherefore, this Court's, "Revised Rules of
Appellate Procedure," have created a violation of the petitioner’s constitutional rights by
Mocking review of the actual issues presented in the circuit court and on appeal.
(

Conclusion
Petitioner's Direct Appeal was denied on January 10,1990. By rule the petitioner had 120
days, from that day, to file a rule 35. Petitioner had a rule 35 pending at that time, which the
circuit court refused to respond to until January 18,2019. Is this court now willing to not only
reward the circuit court for its 29 year delay in ruling, but to change a date that it set as the date
the judgment was rendered, in subornation of such a miscarriage of justice. A change that is
clearly to the petitioner's detriment.
Petitioner has made every attempt to file the proper documents. Petitioner asks only that
he get a proper ruling on the issues that he submitted, pro se, four months after he was
convicted - thirty one years ago, or in the alternative, an order requiring the circuit court to do
so.
Respectfully submitted,

(1&^
Alan Hicks, pro se

u
-75i

<

s~ •

STATE OF WEST VIRGINIA
SUPREME COURT OF APPEALS
State of West Virginia,
Plaintiff Below, Respondent

FILED
January 13, 2020

vs) No. 19-0123 (Putnam County 86-F-59 and 88-F-2)
Alan Lane Hicks,
Defendant Below, Petitioner

EDYTHE NASH GAISER, CLERK
SUPREME COURT OF APPEALS
OF WEST VIRGINIA

MEMORANDUM DECISION
Petitioner Alan Lane Hicks, pro se, appeals the Circuit Court of Putnam County’s January
18, 2019, order denying his Rule 35 motion for reduction of sentence. Respondent the State of
West Virginia, by counsel Benjamin F. Yancey, III, submitted a summary response to which
petitioner submitted a reply.

/

This Court has considered the parties’ briefs and the record on appeal. The facts and legal
arguments are adequately presented, and the decisional process would not be significantly aided
by oral argument. Upon consideration of the standard of review, the briefs, and the record
presented, the Court finds no substantial question of law and no prejudicial error. For these reasons,
a memorandum decision is appropriate under Rule 21 of the Rules of Appellate Procedure.
In 1986, petitioner was indicted by a Putnam County Grand Jury for the first-degree murder
of Pedro Gaona after Mr. Gaona’s body was found floating in the Kanawha River in Putnam
County. Mr. Gaona had been shot twice, and several items of personal property were missing from
his person, including a gold bracelet, a gold necklace, and his wallet that contained approximately
$10,000. In 1988, petitioner was indicted of aggravated robbery and conspiracy to commit murder;
the indictment alleged that petitioner conspired with Curtis Ransom and David Reed to murder
Mr. Gaona and that the three stole personal property from Mr. Gaona in excess of $200. The
indictments were joined by order entered in June of 1988.
Petitioner was tried in September of 1988, and at the close of the State’s case, the circuit
court granted petitioner’s motion for judgment of acquittal as to the charge of aggravated robbery
but not the lesser included offense of grand larceny. The jury convicted petitioner of first-degree
murder without a recommendation of mercy, conspiracy to commit murder, and grand larceny.
Petitioner was sentenced to life in the penitentiary without the possibility of parole for first-degree
murder, one to five years of incarceration for conspiracy to commit murder, and one to ten years
of incarceration for grand larceny. In its October 25, 1988, sentencing order, the circuit court
ordered that petitioner’s sentences run concurrently to one another.

V.

On February 23, 1989, petitioner filed a Rule 35 motion titled “Motion for Reduction of

-1-

r

Life Without Mercy Sentence Under Rule 35,” wherein he requested that his sentence be reduced
to life with mercy or, alternatively, to an indeterminate sentence of five to eighteen years.1
Petitioner’s motion centered around his lack of prior criminal history and his assertion that he did
not fall into the category of criminal for which a life without mercy sentence is intended. The
circuit court did not issue an order on that motion. Petitioner filed a direct appeal with this Court,
though that appeal was refused in January of 1990.
Petitioner then filed a petition for writ of habeas corpus before the circuit court in 1997.
Next, he filed a petition for a writ of mandamus with this Court, wherein he addressed the circuit
court’s failure to rule on his Rule 35 motion to reduce his sentence. In response, the circuit court
stated that it lacked jurisdiction to rule on that motion due to its untimely filing. This Court issued
a Rule to Show Cause Order in January of 2019, and the circuit court subsequently denied
petitioner’s Rule 35 motion due to a lack of jurisdiction, by order entered on January 18, 2019.
The circuit court further held that, even if it had jurisdiction, a reduction of petitioner’s sentence
would be inappropriate due to the seriousness of his crimes. Petitioner appeals from that order.
“In reviewing the findings of fact and conclusions of law of a circuit court
concerning an order on a motion made under Rule 35 of the West Virginia Rules
of Criminal Procedure, we apply a three-pronged standard of review. We review
the decision on the Rule 35 motion under an abuse of discretion standard; the
underlying facts are reviewed under a clearly erroneous standard; and questions of
law and interpretations of statutes and rules are subject to a de novo review.” Syl.
Pt. 1, State v. Head, 198 W.Va. 298, 480 S.E.2d 507 (1996).

(

Syl. Pt. 1, State v. Marcum, 238 W. Va. 26, 792 S.E.2d 37 (2016).
On appeal, petitioner sets forth two assignments of error. First, he seeks the correction of
what he claims is an illegal sentence. Petitioner contends that when the State argued against
petitioner’s motion for a judgment of acquittal as to robbery, the prosecutor stated that “[t]he
essential difference is that the essential element of aggravated robbery is there is property taken
Rule 35 of the West Virginia Rules of Criminal Procedure provides as follows:
(a) Correction of Sentence. The court may correct an illegal sentence at any time
and may correct a sentence imposed in an illegal manner within the time period
provided herein for the reduction of sentence.
(b) Reduction of Sentence. A motion to reduce a sentence may be made, or the court
may reduce a sentence without motion within 120 days after the sentence is
imposed or probation is revoked, or within 120 days after the entry of a mandate by
the supreme court of appeals upon affirmance of a judgment of a conviction or
probation revocation or the entry of an order by the supreme court of appeals
dismissing or rejecting a petition for appeal of a judgment of a conviction or
probation revocation. The court shall determine the motion within a reasonable
time. Changing a sentence from a sentence of incarceration to a grant of probation
shall constitute a permissible reduction of sentence under this subdivision.

-2-

(

by threat or presentment of a firearm, wherein grand larceny you don’t have the element of a
firearm.” The circuit court granted the motion as to aggravated robbery but not as to the lesser
included offense of grand larceny. Petitioner asserts that the “acquittal order is legally based upon
a factual variance between the indictment and the proof at trial.” Further, he argues that the State
“created a collateral estoppel in an endeavor to secure a lesser included grand larceny conviction[,
as t]he record reveals that originally the thrust of the motion for acquittal was the lack of intent to
deprive the victim of property.” He also contends that the “fundamental nature of the double
jeopardy rule is manifested by its explicit extension to situations where an acquittal is based upon
an egregiously erroneous foundation.”
According to petitioner, his indictment directly tracked West Virginia Code § 62-9-6,
which sets forth the language for a robbery indictment. Petitioner argues that “[ojther than the
elements of grand larceny the indictment stated that the petitioner ‘did by presentment of a firearm
... an assault unlawfully and feloniously make . . . .’ The State’s process of bringing separate
indictments, then joining them, amended the indictment to a specific intent crime.” He fiirther
contends that acquittals are substantive rulings that conclude criminal proceedings and raise
significant double jeopardy concerns. Petitioner argues that, in the instant case, the acquittal
“concluded proceedings, not only on the aggravated robbery charge, but the murder charge as well,
because the robbery and the murder were alleged to be the same transaction.”
Finally, with regard to his first assignment of error, petitioner asserts that his acquittal on
the robbery indictment serves as an acquittal of first-degree murder. In an argument that is difficult
to follow, petitioner points to State ex rel. Daye v. McBride, 222 W. Va. 17, 658 S.E.2d 547
(2007),2 where petitioner contends this Court found that the trial court properly applied
Rule 35(a) to change a prisoner’s sentence where the State filed a timely recidivist
information based on his two prior felony convictions, where he admitted the
allegations in the information, and once that procedure was complete, the trial court
has no authority but to impose a life sentence. If the Trial Court in Daye had no
authority but to impose a life sentence after he admitted the allegations in the
information, how much more would this Court be required to hold the State to the
‘Black Letter Law’ involved in the collateral estoppel at issue here now that the
petitioner has pointed out the Prosecutor[’]s reliance upon the theory that both
charges were the same transactions, i.e., felony murder, then waived evidence
required to support the murder.
The State argues that petitioner’s challenges to the validity of his convictions are improper
in a Rule 35 motion and cannot be raised for the first time on appeal. As this Court previously
found, “a Rule 35(b) motion is essentially a plea for leniency from a presumptively valid
conviction.” State v. Head, 198 W. Va. 298,306,480 S.E.2d 507, 515 (1996). Further, “Rule 35(b)
is not a mechanism by which defendants may challenge their convictions and/or the validity of
their sentencing.” Syl. Pt. 2, in part, Marcum. We agree with the State that petitioner’s argument
is essentially that his sentence is illegal due to his alleged wrongful conviction. In addition,
2Although petitioner’s argument seems to refer to felony murder, petitioner was found
guilty of the charge of “murder in the first degree.”

-3-

1>

IN THE CIRCUIT COURT OF PUTNAM COUNTY, WEST VIRGINIA
STATE OF WEST VIRGINIA
vs-

Case No: 86-F-59 and
Judge Joseph K. Reed

CIRCUIT CLE
JflN 18'19ph4:02

ALAN LANE HICKS,
Defendant.
ORDER DENYING RULE 35 MOTION
COMES NOW, the Court pursuant to the Defendant's, Alan Lane Hicks, Motion for
Reduction of Sentence pursuant to Rule 35(b) of the West Virginia Rules of Criminal
Procedure!
Prior to ruling on Defendant’s Motion, the Court reviewed the Defendant’s motion,
the court file in the above-referenced case' and all pertinent' legal authorities.
Accordingly, the Court FINDS and ORDERS as follows:
*

'

v

!

1. .
Defendant was indicted for the murder of Pedro Gaona by the Putnam
County Grand Jury during the 1986 July Term (Indictment No. 86-F-59).
t*

2.

Defendant was indicted on the charges of aggravated robbery and
conspiracy to commit murder by the Putnam County Grand Jury during the 1988 March
Term (Indictment No. 88-F-2).
3.
Defendant was tried on all three charges on September 12, 13, and. 14,
1988 before a jury.
4.

On September 14, 1988, Defendant was convicted of murder in the first
degree without a recommendation of mercy, grand larceny, arid conspiracy to commit
murder.
5.

On October 25,1988, Defendant was sentenced to life imprisonment on the
murder conviction, one to ten years imprisonment on the grand larceny conviction, and

-6-

